                                                                    Employment and Training
                                                                    Administration
                      Office of Inspector General—Office of Audit
Department of Labor




                                                                    Restoring Section 245(i) of the
                                                                    Immigration and Nationality Act
                                                                    Created a Flood of Poor Quality
                                                                    Foreign Labor Certification Applications
                                                                    Predominantly For Aliens
                                                                    Without Legal Work Status




                                                                                         Date Issued: September 30, 2004
                                                                                         Report Number: 06-04-004-03-321
       Department of Labor                                 SEPTEMBER 2004
       Office of Inspector General
       Office of Audit
                                                           RESTORING SECTION 245(I)
                                                           OF THE IMMIGRATION AND
       BRIEFLY…
       Highlights of Report Number: 06-04-004-
                                                           NATIONALITY ACT CREATED
                                                           A FLOOD OF POOR QUALITY
       03-321, a report to the Assistant
                                                           FOREIGN LABOR
       Secretary for Employment and Training.              CERTIFICATION APPLICATIONS
       September 30, 2004.                                 MAINLY FOR ALIENS
       WHY READ THE REPORT                                 WITHOUT LEGAL WORK
                                                           STATUS
       This report details the adverse affects of
       the restoration of Section 245(i) of the            WHAT OIG FOUND
       Immigration and Nationality Act on the
       Employment and Training Administration’s            Our audit found:
       foreign labor certification program in                 • a backlog in processing FLC applications
       terms of significant increase in workload,                (325,000 as of May 2004) due to a 450
       predominance of illegal aliens applying for               percent increase in applications for
       permanent residence status, and poor                      permanent labor certifications from Fiscal
       quality of applications.                                  Year 2000 to 2001;
                                                              • a majority of aliens did not have legal
       WHY OIG DID THE AUDIT                                     status to work (84 percent) or be (67
                                                                 percent) in the U.S. (72 percent);
       The Office of Inspector General (OIG) audited          • most (67 percent) aliens were already
       the Department of Labor’s (DOL) permanent                 working for the petitioning employer at
       Foreign Labor Certification (FLC) program to              the time of application, including nearly 28
       answer three questions:                                   percent who worked for the employer for
                                                                 5 or more years prior to application; and
       How was the FLC program workload affected              • an estimated 69 percent of the 214,406
       by the Section 245(i) provision for the period            applications filed from January 1 through
       January 1, 2001, through April 30, 2001?                  April 30, 2001, and not subsequently
                                                                 canceled or withdrawn, were either
       What was the legal employment status and
                                                                 misrepresented, incomplete, or both.
       actual visa status of individuals applying for
       permanent foreign labor certification during
       the 4-month period covered by Section 245(i)?       WHAT OIG RECOMMENDED

       What was the quality of FLC applications            OIG recommended the Assistant Secretary for
       filed during this 4-month period as determined      Employment and Training:
       by the extent of incomplete and/or                     • require that the current backlog of
       misrepresented applications?                              applications are processed in accordance
                                                                 with applicable laws and regulations;
       READ THE FULL REPORT                                   • verify an employer’s current in-business
                                                                 status prior to certification; and
       To view the report, including the scope,               • refer to the OIG’s Office of Labor
       methodology, and full agency response, go to:             Racketeering and Fraud Investigations any
                                                                 applications where the employer is
       http://www.oig.dol.gov/public/reports/oa/2004/06-         determined not to be a bona fide
       04-004-03-21.pdf                                          employer.

                                                           ETA generally agreed with the report findings.

U.S. Department of Labor—Office of Inspector General
Report No: 06-04-004-03-321
          TABLE OF CONTENTS
          ________________________________________________________________


          Executive Summary ............................................................................................... i

          Assistant Inspector General’s Report.................................................................... 1

          Finding 1: Section 245(i) of the Immigration and Nationality Act (INA) resulted
                     in dramatic increases in applications for permanent foreign labor
                     certification creating a major backlog in processing such
                     applications ........................................................................................ 1

          Finding 2: Most applicants did not have legal employment status and were
                     already employed by the petitioning employer ................................... 3

          Finding 3: Applications filed during the 245(i) period were of poor quality as
                     demonstrated by the number of applications that were
                     misrepresented, incomplete, or both .................................................. 5

          Recommendations .............................................................................................. 14

          ETA’s Response to Draft Report......................................................................... 14

          Auditor’s Conclusion ........................................................................................... 15

          Appendices:

          Appendix A - Background ................................................................................... 19

          Appendix B – Scope, Methodology, and Criteria ................................................ 23

          Appendix C – Acronyms and Abbreviations........................................................ 27

          Appendix D – Response to Draft Report............................................................. 29




U.S. Department of Labor—Office of Inspector General
Report No: 06-04-004-03-321
Restoring Section 245(i) of the Immigration and Nationality Act Created a Flood of Poor Quality
 Foreign Labor Certification Applications Predominantly for Aliens Without Legal Work Status




                 <THIS PAGE INTENTIONALLY LEFT BLANK>




                                     U.S. Department of Labor—Office of Inspector General
                                                             Report No: 06-04-004-03-321
EXECUTIVE SUMMARY
Section 245(i) of the Immigration and Nationality Act (INA) allowed aliens who
had applications for permanent foreign labor certification filed on their behalf from
January 1, 2001, through April 30, 2001, to remain in the United States (U.S.)
without having to return to their countries of origin in order to obtain work-based
visas notwithstanding the fact that the aliens entered the U.S. without inspection,
overstayed, or worked without authorization.

The Office of Inspector General (OIG) audited the Department of Labor’s (DOL)
permanent Foreign Labor Certification (FLC) program to answer the following
questions.

1. How was the FLC program workload affected by the Section 245(i) provision
   for the period January 1, 2001, through April 30, 2001?

2. What was the legal employment status and actual visa status of individuals
   applying for permanent foreign labor certification during the 4-month period
   covered by Section 245(i)?

3. What was the quality of FLC applications filed during this 4-month period as
   determined by the extent of incomplete and/or misrepresented applications?

Audit Results

Section 245(i) of the INA resulted in dramatic increases in applications for
permanent labor certifications creating a major backlog in processing FLC
applications. Of the 335,553 FLC applications filed nationwide in FY 2001, we
estimate that 75 percent of the applications were filed during the period
January 1, 2001, through April 30, 2001.

As of September 30, 2001, the permanent FLC program had a backlog of
approximately 325,000 unprocessed applications. According to a DOL official we
contacted in late May 2004, the last estimate of unprocessed applications was
approximately 315,000.




U.S. Department of Labor—Office of Inspector General                               i
Report No: 06-04-004-03-321
     Restoring Section 245(i) of the Immigration and Nationality Act Created a Flood of Poor Quality
      Foreign Labor Certification Applications Predominantly for Aliens Without Legal Work Status


For the FY 2001 applications filed in the eight states in our sample:

      •
      76 percent were filed from January 1, 2001, through April 30, 2001,
      •
      61 percent were filed in April 2001,
      •
      50 percent were filed in the last 10 days of April, and
      •
      28 percent were filed on April 30, the last day Section 245(i) applications
      could be filed.
(See page 1.)

For FLC applications filed nationwide from January 1, 2001, through April 30,
2001, that were not subsequently cancelled or withdrawn, we estimate:

      •
      84 percent of the aliens did not have legal status to work in the U.S;
      •
      72 percent of the aliens did not have a legal status to be in the U.S; and
      •
      67 percent of the aliens were already working for the petitioning
      employer at the time of application. 95 percent of the applications for
      these aliens provided dates of beginning employment with the petitioning
      employer which showed:
   • 46 percent working 1 to 4 years prior to application;
   • 22 percent working 5 to 9 years prior to application; and
   • 6 percent working over 10 years prior to application.
(See page 3.)

We estimate that 69 percent of the 214,406 applications filed from January 1,
2001, through April 30, 2001, and not subsequently canceled or withdrawn, were
either misrepresented, incomplete, or both. Individually, we estimate 54 percent
of the applications were misrepresented, and 56 percent of the applications were
incomplete.

This audit resulted in the OIG’s Office of Labor Racketeering and Fraud
Investigations (OLRFI) reviewing 540 applications for possible investigation.

      •
      207 were flagged by OLRFI analysts;
      •
      32 applications were flagged by the auditors: and
      •
      301 applications outside of the audit sample were provided by State
      Workforce Agency (SWA) and DOL Employment and Training
      Administration (ETA) regional office personnel.
(See page 14.)




ii                                        U.S. Department of Labor—Office of Inspector General
                                                                  Report No: 06-04-004-03-321
Recommendations

We recommend the Assistant Secretary for Employment and Training:

       Require that the current backlog of applications are processed in
       accordance with applicable laws and regulations by:
          o Preparing a Notice of Finding (NOF) on incomplete applications,
             application packages containing conflicting information, and
             applications containing over restrictive job qualification
             requirements, and
          o Approving employers’ applications only if the aliens have sufficient
             qualifying experience not earned with the petitioning employer.

       Verify an employer’s current in-business status prior to certification and
       refer to the OIG’s OLRFI any applications where the employer is
       determined not to be a bona fide employer.

ETA’s Response

ETA generally agreed with the report findings but offered several comments.

ETA is establishing processing centers where the majority of permanent program
backlog cases will be reviewed and adjudicated. The case management
software that will be used in processing cases will verify an employer’s current in-
business status prior to certification.

ETA has always required, and will continue to require, foreign labor certification
applications to be processed in compliance with all applicable statutes,
regulations, and policies. ETA’s Certifying Officers routinely issue NOFs specific
to individual cases being adjudicated, as warranted. The question of whether an
alien has earned experience with the petitioning employer is addressed in ETA
policy and is routinely reviewed during the certification adjudication process.

Auditor’s Conclusion

ETA’s plan to use software in its backlog processing centers to determine bona
fide employers prior to certification should resolve our recommendation regarding
this matter when the system is operating.

We agree that ETA has policy regarding an alien’s qualifying experience. And,
while ETA may require that FLC applications be processed in compliance with
statutes, regulations and policies, our audit results demonstrate that those
statutes, regulations, and policies are being routinely disregarded.


U.S. Department of Labor—Office of Inspector General                                iii
Report No: 06-04-004-03-321
     Restoring Section 245(i) of the Immigration and Nationality Act Created a Flood of Poor Quality
      Foreign Labor Certification Applications Predominantly for Aliens Without Legal Work Status


Backlog center directors must ensure that staff complies with statutes,
regulations, and ETA policies, especially in regard to qualifying earned
experience with the petitioning employer.

Our recommendations remain unchanged.




iv                                        U.S. Department of Labor—Office of Inspector General
                                                                  Report No: 06-04-004-03-321
U.S. Department of Labor                  Office of Inspector General
                                          Washington, DC. 20210




                            Assistant Inspector General’s Report

      Emily Stover DeRocco
      Assistant Secretary for
       Employment and Training
      U. S. Department of Labor
      200 Constitution Avenue, N.W.
      Washington, DC 20210

      We audited applications filed under the Department of Labor’s permanent
      Foreign Labor Certification (FLC) program for the period January 1, 2001,
      through April 30, 2001. During this period, Section 245(i) of the Immigration and
      Nationality Act (INA) allowed aliens who had applications for labor certifications
      filed on their behalf to remain in the United States without returning to their
      countries of origin to obtain work-based visas. Our objectives were to answer the
      following questions:

      1.     How was the FLC program workload affected by the Section 245(i)
             provision for the period January 1, 2001, through April 30, 2001?

      2.     What was the legal employment status and actual visa status of
             individuals applying for permanent foreign labor certification during the 4-
             month period covered by Section 245(i)?

      3.     What was the quality of FLC applications filed during this 4-month period
             as determined by the extent of incomplete and/or misrepresented
             applications?

      We conducted our audit in accordance with Government Auditing Standards for
      performance audits. Our audit scope, methodology, and criteria are detailed in
      Appendix B.

      FINDINGS AND RECOMMENDATIONS

      Finding 1: Section 245(i) of the Immigration and Nationality Act (INA)
      resulted in dramatic increases in applications for permanent foreign labor
      certification creating a major backlog in processing such applications.

      The Section 245(i) provision resulted in a 450 percent increase in applications
      from fiscal year (FY) 2000 (60,892 applications) to FY 2001 (335,553
      applications). We estimated that nationwide approximately 75 percent of all FY
      2001 FLC applications (252,822 of 335,553) were filed during this 4-month
      U.S. Department of Labor—Office of Inspector General                                  1
      Report No: 06-04-004-03-321
    Restoring Section 245(i) of the Immigration and Nationality Act Created a Flood of Poor Quality
     Foreign Labor Certification Applications Predominantly for Aliens Without Legal Work Status


period. We further estimated that 214,406 of these nationwide applications were
not subsequently canceled or withdrawn.

For the FY 2001 permanent FLC applications filed in the states in our sample:

     •    76 percent were filed from January 1, 2001, through April 30, 2001,
     •    61 percent were filed in April 2001,
     •    50 percent filed in the last 10 days of April, and
     •    28 percent filed on April 30, the last day Section 245(i) applications could
          be filed.

The following chart illustrates the dramatic increase in applications for the
sampled states from January 1, 2001, through April 30, 2001, particularly in April.


    Chart 1.1                         Applications Filed During FY 2001
                                             for Sampled States
         60000

         50000

         40000

         30000

         20000

         10000

             0
                 Oct    Nov Dec JAN FEB MAR APR May Jun                             Jul    Aug Sep


Chart 1.2 shows that with the number of applications filed on the April 30
deadline date -- 28 percent of FY 2001 applications -- employers, aliens, and/or
attorneys were frantic to file before the deadline, which could be another factor in
the number of poor quality applications (see finding 3).




2                                        U.S. Department of Labor—Office of Inspector General
                                                                 Report No: 06-04-004-03-321
    Restoring Section 245(i) of the Immigration and Nationality Act Created a Flood of Poor Quality
     Foreign Labor Certification Applications Predominantly for Aliens Without Legal Work Status




    Chart 1.2                    Applications Filed During April 2001
                                          for Sampled States
            30000

            25000

            20000

            15000

            10000

             5000

                  0
                      2      4      6     10     12      16     18     20     24     26      30

                                                      April 2001


We concluded that Section 245(i) resulted in a massive surge in applications that
overwhelmed the State Workforce Agencies (SWA) and the Employment and
Training Administration (ETA) creating a backlog of approximately 325,000
unprocessed permanent labor certification applications at the end of FY 2001.
According to a DOL official contacted in late May 2004, at last count,
approximately 315,000 applications were still unprocessed.

Finding 2: Most applicants did not have legal employment status and were
already employed by the petitioning employer.

For the estimated 214,406 FLC applications filed nationwide during the covered
period that were not subsequently canceled or withdrawn, we estimated:

         180,217 (84 percent) of the aliens did not have legal status to work in the
         U.S;
         154,407 (72 percent) of the aliens did not have a legal status to be in the
         U.S;
         143,680 (67 percent)1 of the aliens were already working for the
         petitioning employer at the time of application. 136,332 (95 percent) of
         those aliens provided dates of beginning employment with the petitioning
         employer that showed:
1
  The 67 percent of aliens working with the petitioning employer prior to application date may be
understated, due to many applications missing the aliens’ work history.

U.S. Department of Labor—Office of Inspector General                                                  3
Report No: 06-04-004-03-321
    Restoring Section 245(i) of the Immigration and Nationality Act Created a Flood of Poor Quality
     Foreign Labor Certification Applications Predominantly for Aliens Without Legal Work Status




             o Almost 28 percent worked for 5 or more years prior to application.
             o Over 46 percent worked for 1 to 4 years prior to date of application.

With so much employment history with the petitioning employers, there may be a
disincentive for employers to replace the aliens with qualified U.S. workers who
may apply for the positions, in which case the openings are not bona fide.

Chart 2.1, below, shows how long these 136,332 aliens worked for the petitioning
employer prior to the FLC application date.


     Chart 2.1            Time Alien Worked for Petitioning
                          Employer Prior to Application Date


     over 10 yrs              6.3%

          5-9 yrs                       21.5%

          1-4 yrs                                                   46.1%

           to 1 yr                            26.1%

                 0.0%        10.0%        20.0%        30.0%        40.0%        50.0%


In addition to the substantial length of time aliens have been working for the
petitioning employer, the number working without legal status has increased.
The comparison in the chart below clearly shows that Section 245(i) opened the
door for illegal aliens and aliens with no legal right to work in the U.S. to apply for
permanent work visas. The legal and work status of aliens who filed FLC
applications during the INA Section 245(i) period are in stark contrast to the legal
and work status of aliens we reported in a prior OIG audit report.2




2
 Report Number 06-96-002-03-321, “The Department of Labor’s Foreign Labor Certification
Programs: The System is Broken and Needs to Be Fixed” (issued June 29, 1996)

4                                        U.S. Department of Labor—Office of Inspector General
                                                                 Report No: 06-04-004-03-321
  Restoring Section 245(i) of the Immigration and Nationality Act Created a Flood of Poor Quality
   Foreign Labor Certification Applications Predominantly for Aliens Without Legal Work Status




                                                                                 % of Section
Alien Status                                             % of Applicants         245 (i)
                                                         Per 1996 OIG            Applicants Per
                                                         Report                  This Audit
Already working for petitioning employer at
                                                74%                              67%
application date (of all aliens)
Alien did not have legal status to work in U.S.
at application date (of aliens already working 16%                               78%
with petitioning employer)
Alien did not have legal status to be in U.S.
                                                10%                              72%
at application date (of all aliens)

The purpose of the permanent FLC program is to provide employers with access
to foreign workers to fill bona fide job openings when there are not sufficient U.S.
workers who are able, willing, qualified, and available to fill the job opening in the
area of intended employment. Therefore, the intent is for the program to be
employer driven to meet the employers’ needs, not to provide legal status to
aliens in the U.S. without legal status. We concluded that Section 245(i) changed
the system, at least from January 1, 2001, through April 30, 2001, to an alien
driven system; i.e., employers were not seeking foreign workers to fill jobs for
which they could not find U.S. workers, illegal aliens were attempting to get legal
resident alien status.


Finding 3: Applications filed during the Section 245(i) period were of poor
quality as demonstrated by the number of applications that were
misrepresented, incomplete, or both.

We estimate that 69 percent of the applications filed during the covered period
were misrepresented and/or incomplete. Individually, we estimated that 54
percent of the applications were misrepresented, and 56 percent were
incomplete. Most applications selected in our review were pre-adjudication; i.e.,
the CO had not made a determination regarding the application. In the following
discussion we do not distinguish between those already adjudicated and those
still pending at the state or Regional Office because the problems identified are
present in both groups.




U.S. Department of Labor—Office of Inspector General                                                5
Report No: 06-04-004-03-321
    Restoring Section 245(i) of the Immigration and Nationality Act Created a Flood of Poor Quality
     Foreign Labor Certification Applications Predominantly for Aliens Without Legal Work Status


     A. Misrepresented applications account for 116,852 of the 214,406
        applications filed, or 54 percent.

The following chart displays the three major reasons why we determined the
applications are misrepresented. Each type of misrepresentation is based on the
total of the applications reviewed, and is not intended to represent 100 percent.

         Chart 3.1             Major Reasons 116,852 Applications Were
                                      Considered Misrepresented


         Alien does not meet                                                  75.4%
             requirements

         Inconsistent job title,
                                   12.5%
              wage, etc.

               Restrictive Job                31.0%
                Description

                              0%           20%           40%            60%            80%



       1. Alien does not meet the job requirements.

Aliens do not meet the job requirements for two reasons. The first, and main,
reason is that the alien earned most, or all, of the required experience as the
incumbent in the offered position. Title 20 Code of Federal Regulations (20
CFR), Part 656.21(b)(5) provides:

The employer shall document that its requirements for the job opportunity, as
described, represent the employer’s actual minimum requirements for the job
opportunity, and the employer has not hired workers with less training or
experience for jobs similar to that involved in the job opportunity or that it is not
feasible to hire workers with less training or experience than that required by the
employer’s job offer.

This provision is further explained in ETA’s TAG 656, page 52 as follows:

         When an employer has employed or currently employs the alien in
         the occupation for which certification is sought, the application for
         alien employment certification for the alien cannot include as a job
         requirement experience gained by the alien in the occupation while
         working for the employer. This is a valid exclusion since that
         experience was not required for the job when the alien was
         hired. . . . [Emphasis added.]
6                                          U.S. Department of Labor—Office of Inspector General
                                                                   Report No: 06-04-004-03-321
  Restoring Section 245(i) of the Immigration and Nationality Act Created a Flood of Poor Quality
   Foreign Labor Certification Applications Predominantly for Aliens Without Legal Work Status




The second reason an alien is not qualified for the job is if he/she does not have
the education, training, experience, or other special requirements established by
the petitioning employer.

Since the alien has already occupied the position, sometimes for several years, it
is unlikely the petitioning employer will wholeheartedly seek and recruit qualified,
willing, and able U.S. workers. Therefore, no bona fide job opening exists. For
all applications reviewed in this audit, no U.S. workers were hired for the
positions being offered.

U.S. workers may not be rejected for a job opportunity offered to an alien except
for lawful job-related reasons. An employer may not reject U.S. workers who
may be “over qualified” but are willing to accept the job at the wage and
conditions offered. According to 20 CFR 656.20(c):

Job offers filed on behalf of aliens on the Application for Alien Employment
Certification form must clearly show that: . . .
(8) The job opportunity has been and is clearly open to any qualified U.S. worker.

ETA’s TAG, page 36, concerning the regulation states:

       The employer’s recruitment efforts prior to the filing of an
       application and the employer’s willingness to consider U.S. workers
       for the job opportunity after filing the application are indications of
       whether the job was and is clearly open to U.S. workers . . . the
       employer must be willing to conduct required recruitment after filing
       the application and be willing to interview and consider U.S.
       workers for the job opportunity even if the alien is currently
       employed in the job.

We know that in at least one instance, when an employer was questioned for
disregarding qualified U.S. workers who applied for FLC petitioned job openings,
the employer intentionally withdrew all four FLC applications that he had filed.

     2. Inconsistencies exist between the application and related
        documents.

Inconsistent job title, job description, hours of work, and wage rate among the
application, state job order, transmittal form, and advertisements raise questions
regarding the applications’ validity.




U.S. Department of Labor—Office of Inspector General                                                7
Report No: 06-04-004-03-321
    Restoring Section 245(i) of the Immigration and Nationality Act Created a Flood of Poor Quality
     Foreign Labor Certification Applications Predominantly for Aliens Without Legal Work Status




       3. Employers tailored job descriptions

Employers tailored job descriptions to the position the alien currently holds and to
the alien’s current abilities, regardless if these abilities were acquired while
working for the petitioning employer. Applications from otherwise qualified U.S.
workers are disregarded because the employer tailored the job description to
distinguish the alien.

       4. Other reasons

We also considered applications to be misrepresented if the employer refused to
offer 95 percent of prevailing wage (as required by 20 CFR 656.40(a)(2)(i)), or if
the alien and employer, or alien and attorney/agent, had some sort of pre-
existing relationship; e.g., it appears the alien and employer are relatives, the
alien and attorney share an address, or the alien and employer were one in the
same (as in two instances in our sample).



Misrepresented applications deny U.S. workers the opportunity to compete for
positions related to the petitioned jobs. The permanent FLC program is based on
the premise that employers will hire a foreign worker only when no qualified U.S.
workers are available and willing to accept the job at the prevailing wage for that
occupation in the area of intended employment. The program is intended to
ensure that employment of foreign workers on a permanent basis will not
adversely affect the wages and working conditions of U.S. workers that are
similarly employed. When an application is submitted for an alien worker who is
already occupying the offered position, it is unlikely the employer is going to
honestly test the labor market in order to find a qualified and available U.S.
worker.

     B. Incomplete applications account for 119,176 of the estimated 214,406
        applications filed, or 56 percent.

The application for permanent foreign labor certification includes two forms:

         Application Form 750-B, Statement of Qualifications of Alien, and
         Application Form 750-A, Offer of Employment.

If counsel represents the alien and/or employer, a Form G-28, Notice of Entry of
Appearance as Attorney, is also required.

The following chart displays which of the applicable forms were incomplete.



8                                        U.S. Department of Labor—Office of Inspector General
                                                                 Report No: 06-04-004-03-321
  Restoring Section 245(i) of the Immigration and Nationality Act Created a Flood of Poor Quality
   Foreign Labor Certification Applications Predominantly for Aliens Without Legal Work Status



  Chart 3.2       Major Reasons 119,176 Applications Were
                           Considered Incomplete

    Form 750-B                                                       74.2%
     Incomp.

    Form 750-A                           38.4%
     Incompl.

                           6.1%
  G-28 Incompl

                0%             20%              40%             60%             80%

Applications are incomplete due to missing pieces of information, no signatures
and/or dates, or attorney form being incomplete.

According to 20 CFR 656.24(b) and (b)(1)

       Labor certification determinations . . . (b) The regional or national
       Certifying Officer, as appropriate, shall make a determination either
       to grant the labor certification or to issue a Notice of Findings on the
       basis of whether or not: (1) The employer has met the
       requirements of this part. However, where the Certifying Officer
       determines that the employer has committed harmless error, the
       Certifying Officer nevertheless may grant the labor certification,
       Provided, That the labor market has been tested sufficiently to
       warrant a finding of unavailability of and lack of adverse effect on
       U.S. workers. Where the Certifying Officer makes such a
       determination, the Certifying Officer shall document it in the
       application file. [Emphasis added.]

We did not find any certified application in our sample that the CO documented
as “employer committed harmless error.” Thus, in our review, if information was
missing from the application we considered it incomplete.

Applications were considered incomplete because the application was missing
one or more of the required data elements, such as:

       Part-B (Statement of Qualifications of Alien)
       o    Name of alien,
       o    Date of birth, birthplace, present Nationality or Citizenship,
       o    Occupation in which alien is seeking employment,


U.S. Department of Labor—Office of Inspector General                                                9
Report No: 06-04-004-03-321
     Restoring Section 245(i) of the Immigration and Nationality Act Created a Flood of Poor Quality
      Foreign Labor Certification Applications Predominantly for Aliens Without Legal Work Status


          o     Names and addresses of schools, field of study, and related dates
                and degrees for educational achievements, (if education is a
                requirement of the job offer),
          o     Additional skills or unique skills alien currently possesses, including
                licenses,
          o     Complete detailed work history, including employer name,
                employment dates, kind of business, detailed job duties performed,
                hours worked,
          o     Alien’s signature and date application was completed,
          o     Additional signature of alien and date if alien designated an agent for
                representation, and
          o     Address of agent if alien is represented.

          Part-A (Offer of Employment)
          o      Employer telephone number, nature of business, name of job
                 offered, work hours, and pay,
          o      Full job description, duties, required education, training, experience,
                 and other special requirements,
          o      Employer signature, title, and date application was completed,
          o      Additional signature of employer and date if employer designated
                 an agent for representation, and
          o      Address of agent if employer is represented.

          G-28 (Notice of Entry of Appearance as Attorney or Representative)
          o     Employer or alien name and address,
          o     Name, address, and telephone number of attorney, or
          o     Signature or date form completed by attorney.

The employer must sign Part-A, and by virtue of his signature certifies and
declares under penalty of perjury that:

          Enough funds are available to pay the wage or salary offered the alien,
          The wage offered equals or exceeds the prevailing wage . . . and that the
          wage paid to the alien will equal or exceed the prevailing wage which is
          applicable at the time the alien begins work, and
          The job opportunity has been and is clearly open to any qualified U.S.
          worker.

The alien must sign Part-B, and by doing so declares that under penalty of
perjury the application is true and correct.

      C. Pressure to process applications led to less thorough reviews of
         applications.

At the time we interviewed Regional ETA COs, they stated they were under
constant pressure to reduce the backlog of applications. When the backlog took

10                                        U.S. Department of Labor—Office of Inspector General
                                                                  Report No: 06-04-004-03-321
  Restoring Section 245(i) of the Immigration and Nationality Act Created a Flood of Poor Quality
   Foreign Labor Certification Applications Predominantly for Aliens Without Legal Work Status


a tremendous leap during the 245(i) period, to reduce the backlog buildup, COs
began applying some different standards when certifying an application, such as:

       They use the “harmless error” criteria and certify the application. For
       example:
          o Missing signatures are not considered a major problem.
          o Missing dates are considered minor.
          o A form G-28 for alien representation is not necessary; they accept
               as long as a form G-28 for employer representation is available.
       They are more lenient on cook applications because few U.S. workers
       ever apply.
       They avoid sending out a Notice of Findings (NOF) if at all possible
       because it slows up the process and the application will usually be
       certified eventually.
       They allow work experience credit up to 3 years for aliens having a
       master’s degree regardless of the employer’s minimum requirements,
       They encourage employers to use the reduction in recruitment (RIR)
       method to process applications since this method places more demands
       on the employer and less on the state and CO.

Additionally, COs stated it is not necessary for the alien to complete the last 3
years of work history the application requires. As long as the application shows
experience that meets the minimum requirements for the job offered, the
application is approved. COs also told auditors ETA is not responsible for
verifying the alien’s qualifications, and they rely on the Bureau of Citizenship and
Immigration Services (BCIS) to check the alien’s documentation.

The COs must also give priority to applications for the temporary H2A and H2B
programs and process them within a short timeframe pursuant to Federal
regulations. This priority requires staff to work on temporary applications rather
than permanent applications. In one regional office, at April 2004 the current
backlog of permanent applications was over 7,700, and only one staff was
available to work part-time on the cases. Per the CO, “the backlog is growing,
not being reduced.”

While understanding the constraints placed on the COs to certify applications, we
still reviewed the sample of applications according to published regulations. We
found certified applications that were incomplete and/or misrepresented. In most
cases the CO agreed that further action should have been taken on the files prior
to certification. Most would have required an NOF being sent to the employer for
additional information. An NOF is one of the few methods available to request
additional documentation for an application prior to denial.

Of the 151 applications in our sample on which the COs had made a
determination, only 4 applications were denied. All four denials resulted from the
U.S. Department of Labor—Office of Inspector General                                                11
Report No: 06-04-004-03-321
     Restoring Section 245(i) of the Immigration and Nationality Act Created a Flood of Poor Quality
      Foreign Labor Certification Applications Predominantly for Aliens Without Legal Work Status


employer not responding to an NOF. We called each of the employers involved,
and learned that all four aliens had worked for the petitioning employer prior to
application. One alien continues to work for the employer and the other three
have found different jobs.

For the employer where the alien continues to work, ETA sent the employer an
NOF with the intention to deny because the employer unlawfully rejected U.S.
workers. The employer received a total of 21 referrals responding to the job
opening; ETA found 2 of the referrals were found rejected for other than lawful,
job-related reasons. ETA ultimately denied the application because the employer
did not respond to the NOF. We contacted this employer and learned that the
alien was currently working for the petitioning employer, and has since July 10,
1997.

We followed up with the SWAs to determine the business status of the petitioning
employers for the 318 applications in our sample that ETA already certified (147)
or were still pending review by the SWA or ETA (171).

Of the 147 certified applications, 9 employers were no longer in business at the
time of our audit. Six of these employers processed their applications using the
RIR method, which is the least cumbersome and CO-preferred method. Of these
nine applications:

          Three applications were certified after the employer went out of business.
          Six employers went out of business after the application was certified.

For 36 of the 171 applications pending review (21 percent), the employer is no
longer in business. However, these applications could still be certified because
the COs do not verify the employer’s status prior to certifying applications. It
would seem appropriate for the CO to verify the employer is still in business just
prior to certification, especially since most applications have been in process for
several years, and the economy of the country has changed.

ETA’s Technical Assistance Guidance (TAG) NO. 656, page 137, Section H,
“Applications Inappropriate for Labor Certification,” provides:

          Applications for alien employment certification in certain instances
          are inappropriate for labor certification....The employer has no
          location in the United States.

The regulations define an “employer” as a person, association, firm, or a
corporation which has a location within the United States to which U.S.
workers may be referred for employment and which proposes to employ a
full-time worker at a place within the United States.



12                                        U.S. Department of Labor—Office of Inspector General
                                                                  Report No: 06-04-004-03-321
   Restoring Section 245(i) of the Immigration and Nationality Act Created a Flood of Poor Quality
    Foreign Labor Certification Applications Predominantly for Aliens Without Legal Work Status


TAG 656, page A-13, defines job opportunity as:

         A job opening for employment at a place in the United States to
         which U.S. workers can be referred.

Therefore, if the employer has no location in the U.S. to which U.S. workers can
be referred there is no job opportunity and it would be inappropriate for an
employer to submit an FLC application on behalf of an alien. Furthermore, it
would be inappropriate for a CO to certify such an application.

------------------------------------------------------------------------------------------------------------

ETA officials informed the OIG that ETA’s Office of Foreign Labor Certification is
implementing a new organizational structure and processes for the backlogged
applications. They are aware of the poor quality of backlogged applications
waiting to be processed.

ETA is establishing backlog elimination centers in Dallas and Philadelphia. Once
operational these centers will change the processing of the applications to a
center-based type of case processing. Permanent cases backlogged at the
states will be transferred to the two Federal backlog reduction centers for
processing. The contract for operating the centers has been awarded and the
centers are being made operational.

ETA informed the OIG that its software system for processing backlogged
applications will do an employer validity check to ensure businesses are bona
fide and will identify incomplete applications and initiate a NOF to the employer.

      D. Other evidence of possible misuse of the FLC system was the
         number of questionable applications identified.

Applications sampled for review were forwarded to OLRFI to determine if there
were any indicators of misuse of the system. If information making the
application questionable was discovered, the application was “flagged” and audit
staff did not contact the employer or attorney involved.

SWA and ETA staff were asked during the entrance conference to provide
auditors with copies of questionable applications. Auditors were provided with
additional questionable applications outside of our audit sample, which were
forwarded to OLRFI for further investigation.

This audit resulted in 540 applications forwarded to OLRFI for investigative
review. Chart 3.3, below, shows the number of applications that were “flagged”
for further investigative work. The chart also shows that SWA and ETA


U.S. Department of Labor—Office of Inspector General                                                     13
Report No: 06-04-004-03-321
     Restoring Section 245(i) of the Immigration and Nationality Act Created a Flood of Poor Quality
      Foreign Labor Certification Applications Predominantly for Aliens Without Legal Work Status


personnel referred an additional 301 questionable applications outside our
sample to the auditors for referral to OLRFI.


     Chart 3.3                Applications Referred for
                                Investigative Review
     350
     300
     250                                                               301
     200
     150             207
     100
                                                32
      50
       0
              OLRFI Flagged              OA Flagged           OA Referred to OI



With the number of applications containing questionable information, and the
number of applications that SWA and ETA staff believed were questionable,
continued scrutiny of applications to ensure their merit must be maintained.


Recommendations

We recommend the Assistant Secretary for Employment and Training:

           Require that the current backlog of applications are processed in
           accordance with applicable laws and regulations by:
              o Preparing NOFs on incomplete applications, application packages
                 containing conflicting information, and applications containing over
                 restrictive job qualification requirements, and
              o Approving employers’ applications only if the aliens have sufficient
                 qualifying experience not earned with the petitioning employer.

           Verify an employer’s current in-business status prior to certification and
           refer to the OIG’s OLRFI any applications where the employer is
           determined not to be a bona fide employer.

ETA’s Response to Draft Report

ETA generally agreed with the draft report findings but offered the following
comments:


14                                        U.S. Department of Labor—Office of Inspector General
                                                                  Report No: 06-04-004-03-321
         Restoring Section 245(i) of the Immigration and Nationality Act Created a Flood of Poor Quality
          Foreign Labor Certification Applications Predominantly for Aliens Without Legal Work Status


       ETA is attempting to eliminate the backlog caused by the reinstatement of
       Section 245(i) of the INA but needs additional resources, which have been
       partially appropriated, to fully eliminate the entire backlog. ETA is
       establishing processing centers where the majority of permanent program
       backlog cases will be reviewed and adjudicated. The case management
       software that will be used in processing cases will verify an employer’s
       current in-business status prior to certification.

ETA further stated:

       ETA has always required, and will continue to require, foreign labor
       certification applications to be processed in compliance with all applicable
       statutes, regulations, and policies. The utilization of NOFs is specific to
       the substance of the individual case being adjudicated; these are routinely
       issued, as warranted, by the ETA Certifying Officers. The question of
       whether an alien has earned experience with the petitioning employer is
       addressed in ETA policy and is routinely reviewed during the certification
       adjudication process.

Auditor’s Conclusion

ETA’s plan to use software in its backlog processing centers to determine bona fide
employers prior to certification should resolve our recommendation regarding this matter
when the system is operating.

We agree that ETA has policy in TAG 656, previously cited in this report, regarding an
alien’s qualifying experience. And, while ETA may require that FLC applications be
processed in compliance with statutes, regulations and policies, including TAG 656, our
audit results demonstrate that those statutes, regulations, and policies are being
routinely disregarded.

Backlog center directors must ensure that staff complies with statutes, regulations, and
ETA policies (e.g. TAG 656), especially in regard to qualifying earned experience with
the petitioning employer.

Our recommendations remain unchanged.




Elliot P. Lewis
May 21, 2004



       U.S. Department of Labor—Office of Inspector General                                                15
       Report No: 06-04-004-03-321
     Restoring Section 245(i) of the Immigration and Nationality Act Created a Flood of Poor Quality
      Foreign Labor Certification Applications Predominantly for Aliens Without Legal Work Status




                      <THIS PAGE INTENTIONALLY LEFT BLANK>




16                                        U.S. Department of Labor—Office of Inspector General
                                                                  Report No: 06-04-004-03-321
  Restoring Section 245(i) of the Immigration and Nationality Act Created a Flood of Poor Quality
   Foreign Labor Certification Applications Predominantly for Aliens Without Legal Work Status




APPENDICES




U.S. Department of Labor—Office of Inspector General                                                17
Report No: 06-04-004-03-321
     Restoring Section 245(i) of the Immigration and Nationality Act Created a Flood of Poor Quality
      Foreign Labor Certification Applications Predominantly for Aliens Without Legal Work Status




            <THIS PAGE INTENTIONALLY LEFT BLANK>




18                                        U.S. Department of Labor—Office of Inspector General
                                                                  Report No: 06-04-004-03-321
  Restoring Section 245(i) of the Immigration and Nationality Act Created a Flood of Poor Quality
   Foreign Labor Certification Applications Predominantly for Aliens Without Legal Work Status


                                                                                    Appendix A


BACKGROUND

The purpose of the permanent FLC program is to provide employers with access
to foreign workers to fill bona fide job openings when there are not sufficient U.S.
workers who are able, willing, qualified, and available to fill the job opening in the
area of intended employment. The program is designed to ensure that the
admission of alien workers does not adversely affect the job opportunities,
wages, and working conditions of American workers or legal resident aliens.

ETA has responsibility under the permanent FLC certification program for
approving (certifying) or denying applications for aliens to work in the U.S.

According to 20 CFR 656.2 (c) (1):

       The Secretary of Labor has first certified to the Secretary of State
       and to the Attorney General that:
              (i)    There are not sufficient United States workers, who
                     are able, willing, qualified, and available at the time of
                     application for a visa and admission to the United
                     States and at the place where the alien is to perform
                     such skilled or unskilled labor.

20 CFR 656.20(c)(2) states:

The wage offered equals or exceeds the prevailing wage determined pursuant to
Sec. 656.40, and the wage the employer will pay to the alien when the alien
begins work will equal or exceed the prevailing wage which is applicable at the
time the alien begins work.

In most instances, before a U.S. employer can submit an immigration petition to
the BCIS, the employer must obtain an approved “Application for Alien
Employment Certification” (Form ETA 750) from the DOL’s ETA. The DOL must
certify to the BCIS that no qualified U.S. workers are available and willing to
accept the job at the prevailing wage for that occupation in the area of intended
employment.

The DOL, in concert with the local SWA, processes the ETA 750 applications.
The date the application is filed with the SWA is the application’s “priority date.”
After DOL approves the ETA 750, the employer submits the approved ETA 750
to the BCIS service center with an “Immigrant Petition for Alien Worker” (Form I-
140). The priority date is the date the BCIS and Department of State use for
processing petitions and visa applications, respectively.
U.S. Department of Labor—Office of Inspector General                                                19
Report No: 06-04-004-03-321
     Restoring Section 245(i) of the Immigration and Nationality Act Created a Flood of Poor Quality
      Foreign Labor Certification Applications Predominantly for Aliens Without Legal Work Status




Currently, employers mainly use two methods to request approval of the
permanent alien labor certification: the DOL/SWA “basic,” or traditional, process;
and, the “reduction in recruitment” (RIR) process. Regardless of the method
followed, the employer must comply with the qualifying criteria:

          the employer must hire the foreign worker as a full-time employee;

          the job opening must be bona fide;

          the job requirements must adhere to what is customarily required for the
          occupation in the U.S. and may not be tailored to the worker’s
          qualifications;

          the employer must document that the job opportunity has been and is
          being described without unduly restrictive job requirements, unless
          adequately documented as arising from business necessity; and

          the employer must pay at least the prevailing wage for the occupation in
          the area of intended employment.

The length of time required to process permanent labor certification applications
varies from about 1 year using the RIR process to 3 years or more under the
normal process.

Not surprisingly, the permanent program had a backlog of about 325,000
unprocessed applications for foreign labor certification as of September 30, 2001.
A major factor contributing to this backlog was the restoration of Section 245(i) of
the INA. Section 245(i) allowed aliens who had an application for labor
certification filed on their behalf from January 1, 2001, through April of 2001, to
remain in the U.S. without having to return to their countries of origin in order to
obtain work-based visas. This resulted in a large influx of applications that were
often found to be of poor quality and requiring considerably more staff time to
process.

The current process for approving these applications involves reviews at the
SWA and ETA regional office levels. ETA has published proposed rules3 that will
streamline the process for filing and processing of labor certification applications
for the permanent employment of aliens in the U.S., specifically to implement the
new Program Electronic Review Management (PERM) system.

Given that the foreign labor certification program is one of the few avenues
available for immigrants who want to enter the U.S. legally, and the large

3
    67 Federal Register 30466 (May 6, 2002)


20                                        U.S. Department of Labor—Office of Inspector General
                                                                  Report No: 06-04-004-03-321
  Restoring Section 245(i) of the Immigration and Nationality Act Created a Flood of Poor Quality
   Foreign Labor Certification Applications Predominantly for Aliens Without Legal Work Status


amounts of money unscrupulous agents or recruiters can earn from aliens
seeking entry into the country, there is a strong incentive to commit fraud or
abuse, which can have adverse affects on American wages and working
conditions.

During FY 2003, OLRFI obtained 168 indictments and 78 convictions related to
fraud in the FLC program.




U.S. Department of Labor—Office of Inspector General                                                21
Report No: 06-04-004-03-321
     Restoring Section 245(i) of the Immigration and Nationality Act Created a Flood of Poor Quality
      Foreign Labor Certification Applications Predominantly for Aliens Without Legal Work Status




            <THIS PAGE INTENTIONALLY LEFT BLANK>




22                                        U.S. Department of Labor—Office of Inspector General
                                                                  Report No: 06-04-004-03-321
  Restoring Section 245(i) of the Immigration and Nationality Act Created a Flood of Poor Quality
   Foreign Labor Certification Applications Predominantly for Aliens Without Legal Work Status


                                                                                    Appendix B



SCOPE, METHODOLOGY AND CRITERIA
Scope and Methodology

We conducted our audit in accordance with Government Auditing Standards,
issued by the Comptroller General of the United States, and included such tests
as we considered necessary to satisfy the objectives of the audit. Fieldwork was
conducted from June 9, 2003 through May 21, 2004.

Our audit was limited to FLC applications filed from January 1, 2001, through
April 30, 2001, the period covered by Section 245(i) of the INA.

Our audit started with the universe of all permanent FLC applications (335,553)
filed nationally during FY 2001 (October 1, 2000, through September 30, 2001)
as provided by ETA based on state-reported information.

We used a two-stage stratified cluster sampling methodology for the audit:

We first stratified the states into four groups -- high; medium; low; very low --
based on the number of FY 2001 applications reported filed in each state. Then
we scientifically selected eight states – two from each stratum -- for audit.

Using electronic data files obtained from the eight sampled states, we identified
each state’s universe of applications filed during the INA 245(i) period (January
1, 2001, through April 30, 2001). We then selected for audit a random sample of
applications filed during the INA 245(i) period from each sampled state.

In pulling the sampled applications, we identified many applications that were
either cancelled or withdrawn. We randomly replaced those cancelled and
withdrawn applications with applications that were either still pending review, or
certified. During our audit analyses, we also identified some special handling
applications, one application outside our audit scope, one application file that
was lost, and other applications that were canceled after our audit began. We
did not replace those applications.

The result of our sampling plan is as follows:




U.S. Department of Labor—Office of Inspector General                                                23
Report No: 06-04-004-03-321
     Restoring Section 245(i) of the Immigration and Nationality Act Created a Flood of Poor Quality
      Foreign Labor Certification Applications Predominantly for Aliens Without Legal Work Status




                                    STATE FLC APPLICATIONS
                                                                                SAMPLE
                                                                                SIZE
                                     FY 2001             SEC 245(i)
STATE                               POPULATION           POPULATION             Orig   Rev
California                          73,094               55,531                 110    107
Massachusetts                       13,198               10,556                 45     46
Michigan                            5,642                3,176                  30     29
District of Columbia                3,543                3,094                  30     28
Wisconsin                           1,948                1,239                  30     25
Kansas                              322                  263                    30     29
Delaware                            1,042                805                    30     30
New Mexico                          584                  471                    30     28
  Totals                            99,373               75,135                 335    322


The following universes of applications are referred to in this report:

ETA-reported national universe of FY 2001 FLC applications                             335,553

Estimated national universe of FLC applications filed during the
period January 1, 2001, through April 30, 2001, based on
100 percent computer analysis of FY 2001 applications for
eight sampled states                                                                   252,822

Estimated national universe of FLC Applications filed during the
period January 1, 2001, through April 30, 2001, that were
neither cancelled nor withdrawn, based on the results of audit
analysis of sampled FLC applications.4                                                 214,406

Application files were obtained from either the SWA or the ETA Regional Office,
depending on their stage of processing. The application and related documents
were analyzed to determine:

           If the application was incomplete (i.e., any essential data elements
           missing);
           If the application was misrepresented, e.g.;
                o If the alien did not meet the employer’s minimum requirements for
                   the job offer,
                o Whether the job requirements appeared to be overly restrictive and
                   tailored to the alien, and
                o If inconsistencies exist between application and related documents;


4
    This is the population used to estimate the audit results in this report.

24                                         U.S. Department of Labor—Office of Inspector General
                                                                   Report No: 06-04-004-03-321
  Restoring Section 245(i) of the Immigration and Nationality Act Created a Flood of Poor Quality
   Foreign Labor Certification Applications Predominantly for Aliens Without Legal Work Status


       If there were comments from SWA or ETA staff pointing to potential
       problems with the application that were not resolved properly.

We also analyzed the application files to determine the aliens legal status and
employment status at time of application.

The application information and related data was then:


       entered into an Access database,
       edited and validated,
       summarized and analyzed using Statistical Analysis Software (SAS), and
       Statistical estimations were made using Survey Data Analysis software
       (SUDAAN).

The focus of the audit was the impact of the Section 245(i) provision on the FLC
program’s workload, the aliens’ statuses at time of application, and the quality of
the applications as submitted. Many applications had not undergone the SWA or
ETA review at the time of our audit, however, for certified applications the audit
tests determined the effectiveness of the internal controls designed to ensure
FLC applications are complete and accurate.

Estimation Methodology

The point estimate (projections) and sampling errors have been calculated using
Taylor’s linearization methodology using two-stage stratified cluster without
replacement design.

Criteria

Immigration and Nationality Act, Section 245(i)

ETA’s Technical Assistance Guidance (TAG) NO. 656

Title 20 Code of Federal Regulations (20 CFR), Part 656.21(b)(5):

20 CFR 656.20(c)

20CFR 656.40(a)(2)(i):

FLC Application Form 750-A, Offer of Employment.

FLC Application Form 750-B, Statement of Qualifications of Alien

FLC Form G-28, Notice of Entry of Appearance as Attorney
U.S. Department of Labor—Office of Inspector General                                                25
Report No: 06-04-004-03-321
     Restoring Section 245(i) of the Immigration and Nationality Act Created a Flood of Poor Quality
      Foreign Labor Certification Applications Predominantly for Aliens Without Legal Work Status




            <THIS PAGE INTENTIONALLY LEFT BLANK>




26                                        U.S. Department of Labor—Office of Inspector General
                                                                  Report No: 06-04-004-03-321
  Restoring Section 245(i) of the Immigration and Nationality Act Created a Flood of Poor Quality
   Foreign Labor Certification Applications Predominantly for Aliens Without Legal Work Status


                                                                                    Appendix C



ACRONYMS AND ABBREVIATIONS


  BCIS              Bureau of Citizenship and Immigration Services
  CFR               Code of Federal Regulations
  CO                Certifying Officer
  DOL               United States Department of Labor
  ETA               Employment and Training Administration
  FLC               Foreign Labor Certification
  FY                Fiscal Year
  INA               Immigration and Nationality Act
  INS               Immigration and Naturalization Service
  NOF               Notice of Finding
  OA                Office of Audit
  OIG               Office of Inspector General
  OLRFI             Office of Labor Racketeering and Fraud Investigations
  PERM              Program Electronic Review Management
  RIR               Reduction in Recruitment
  RO                Regional Office
  SWA               State Workforce Agency
  TAG               Technical Assistance Guidance
  U.S.              United States




U.S. Department of Labor—Office of Inspector General                                                27
Report No: 06-04-004-03-321
     Restoring Section 245(i) of the Immigration and Nationality Act Created a Flood of Poor Quality
      Foreign Labor Certification Applications Predominantly for Aliens Without Legal Work Status




                      <THIS PAGE INTENTIONALLY LEFT BLANK>




28                                        U.S. Department of Labor—Office of Inspector General
                                                                  Report No: 06-04-004-03-321
  Restoring Section 245(i) of the Immigration and Nationality Act Created a Flood of Poor Quality
   Foreign Labor Certification Applications Predominantly for Aliens Without Legal Work Status


                                                                                    Appendix D




                    RESPONSE TO DRAFT REPORT




U.S. Department of Labor—Office of Inspector General                                                29
Report No: 06-04-004-03-321
     Restoring Section 245(i) of the Immigration and Nationality Act Created a Flood of Poor Quality
      Foreign Labor Certification Applications Predominantly for Aliens Without Legal Work Status




                      <THIS PAGE INTENTIONALLY LEFT BLANK>




30                                        U.S. Department of Labor—Office of Inspector General
                                                                  Report No: 06-04-004-03-321
  Restoring Section 245(i) of the Immigration and Nationality Act Created a Flood of Poor Quality
   Foreign Labor Certification Applications Predominantly for Aliens Without Legal Work Status




U.S. Department of Labor—Office of Inspector General                                                31
Report No: 06-04-004-03-321
     Restoring Section 245(i) of the Immigration and Nationality Act Created a Flood of Poor Quality
      Foreign Labor Certification Applications Predominantly for Aliens Without Legal Work Status




32                                        U.S. Department of Labor—Office of Inspector General
                                                                  Report No: 06-04-004-03-321
